                            UNITED STATES DEPARTMENT OF AGRICULTURE
                                          OFFICE OF INSPECTOR GENERAL

                                               Washington, D.C. 20250




June 25, 2010

TO:               Recovery Accountability and Transparency Board

FROM:             Phyllis K. Fong /s/
                  Inspector General

SUBJECT:          American Recovery and Reinvestment Act–Review of the Effectiveness of
                  Department/Agency Data Quality Review Processes


The American Recovery and Reinvestment Act of 20091 (Recovery Act), enacted in February
2009 states that the use of Recovery Act funds should be transparent: reported clearly,
accurately, and in a timely manner. The Recovery Act authorized $787 billion in Federal funds
to various Federal Executive Departments/Agencies (hereafter referred to as “agencies”) to
jump-start the economy, create or save jobs, and invest in long-term economic growth. To
ensure that these funds are spent wisely, the Recovery Act calls for unprecedented levels of
transparency and accountability, requiring certain fund recipients—including State and local
government agencies and contractors—to provide quarterly reports on their use of funds. These
quarterly reports include almost 100 data elements, such as the type, date, and amount of award;
project description; and the number of jobs created or retained by each project. On
December 18, 2009, the Office of Management and Budget (OMB) issued OMB M-10-08,
Updated Guidance on the American Recovery and Reinvestment Act–Data Quality, Non-
Reporting Recipients, and Reporting of Job Estimates. OMB M-10-08 provides guidance to
Federal agencies to improve the quality of data reported by award recipients under the general
recipient reporting guidance outlined in Section 1512 of the Recovery Act.2 Before reports are
made available on the Recovery.gov Web site, Federal agencies are to perform data quality
reviews of the information and notify recipients of data errors or omissions that need to be
corrected. The Recovery.gov Web site was specifically designed to provide the public with
Recovery Act data that are transparent and easily retrievable.

This audit focused on the OMB M-10-08-specified internal controls and policies and procedures
for implementing recipient reporting requirements that are the agency’s responsibility when
disbursing Recovery Act funds, as of December 31, 2009 (the end of the second reporting
quarter).

1
  American Recovery and Reinvestment Act of 2009, P.L. 111-5, 123 Stat. 115.
2
  Section 1512 of the Recovery Act requires reports on the use of Recovery Act funding by recipients no later than
the 10th day after the end of the calendar quarter (beginning with the quarter ending September 30, 2009), and
requires that the Federal agency providing those funds make the reports publicly available no later than the 30th day
after the end of that quarter.
OMB has issued additional guidance since December 31, 2009, addressing some of the issues
raised in this report.

    ·    OMB issued M-10-14 on March 22, 2010. This guidance provided (1) minimum actions
         Federal agencies must take in conducting data quality reviews during the “continuous
         corrections” period, (2) categories for describing issues or problems identified during the
         data quality review process, (3) additional steps Federal agencies should take in
         calculating control totals for their reviews of noncompliant recipients, (4) circumstances
         under which a recipient should indicate that its Section 1512 submission is the “final
         report,” and (5) steps agencies should take to update their agency and program
         performance information on Recovery.gov.

    ·    OMB issued M-10-17 on May 4, 2010. This guidance addressed actions agencies should
         take to (1) intensify efforts to improve compliance by newly awarded Recovery Act
         recipients required to file reports in FederalReporting.gov; (2) obtain compliance by
         Recovery Act recipients required to file reports in FederalReporting.gov, but who failed
         to do so in the prior reporting period; (3) track recipient reporting; (4) address
         noncompliant recipient reporters; and (5) address repeatedly noncompliant recipient
         reporters. This guidance also provided the tools and sanctions available to agencies to
         ensure recipient compliance with reporting.

The guidance in OMB M-10-08 called for agencies disbursing Recovery Act funds to implement
a limited data review process to identify material omissions3 and/or significant errors4 and to
notify award recipients of the need to make complete, accurate, and timely adjustments. Our
objective was to determine whether the selected Federal agencies have fully implemented
internal control structures that were effective in ensuring that recipient data are reported
completely, accurately, and in a timely manner and that any material omissions and/or significant
errors are identified and corrected. The Offices of Inspectors General (OIGs) of six Federal
agencies—the Department of Housing and Urban Development, the Department of Defense, the
General Services Administration, the Environmental Protection Agency, the National Science
Foundation, and the Department of Agriculture (USDA)—participated in this audit.5

We reviewed the policies and procedures developed by agencies and agency subunits in relation
to ensuring the quality of data reported by Recovery Act award recipients. We found that the
agencies had issued policies and general procedures that follow the guidance outlined in OMB
M-10-08. However, the level of effort and the methodologies that the various agencies used to
implement this guidance differed significantly from one agency to another and among agency

3
  Material omissions are instances where required data are not reported or reported information is not otherwise
responsive to the data requests, resulting in significant risk that the public is not fully informed as to the status of a
Recovery Act project or activity.
4
  Significant errors are instances where required data are not reported accurately and such erroneous reporting
results in significant risk that the public will be misled or confused by the recipient report in question.
5
  Another OIG brought to our attention a report it issued discussing the Department of Energy’s quality assurance
process for recipient-reported data-Accounting and Reporting for the American Recovery and Reinvestment Act by
the Department of Energy’s Funding Recipients, dated April 2010.

                                                                                                               2
subunits. Those agencies included in our review that had good systems of internal controls for
reviewing recipient reports (two out of six agencies) did identify and report material omissions
and significant errors as required. However, material omissions and significant errors were not
identified and/or reported when agencies (four out of six agencies reviewed) had not
implemented internal controls to ensure that monitoring efforts were consistent, effective, and
complete. For the agencies that had not implemented effective internal controls, agency level
reports were issued recommending that these agencies (1) develop and implement a process to
ensure that all awards are reported accurately, and (2) follow an effective and consistent
methodology for reviewing recipient data to identify material omissions and significant errors.

We also performed reviews of recipient-reported data on FederalReporting.gov and attempted to
compare the data with data available in agency-owned systems. We found that because the
agency-owned systems were legacy systems, developed prior to the Recovery Act, the data fields
and naming conventions were not consistent with the data fields and naming conventions in
FederalReporting.gov. As a result, matching the data was difficult and, in some instances,
impossible. We found that there was no consistent system of unique identifier codes for
Recovery Act awards that would facilitate matching recipient-reported award data. We also
found that agencies had not always performed the logic checks for recipient-reported data, as
suggested in OMB M-10-08, and there were inconsistencies in the agency’s interpretation of
which reporting errors were significant and had to be adjusted. We recommend that the
Recovery Accountability and Transparency Board (Recovery Board) pursue discussions with the
appropriate Government entities concerning the feasibility and cost/benefit of (1) establishing a
uniform, consistent Governmentwide award numbering system for all Recovery Act recipients,
(2) making the suggested logic checks defined in OMB M-10-08 mandatory, and (3) issuing
guidance for identifying significant omissions. These actions would help improve the
verification and accuracy of recipient-reported information and the consistency within and across
agencies with respect to actions taken relating to reporting errors.

Background

Under the Recovery Act, Federal agencies received about $787 billion in funding in a number of
areas—loans, grants, contracts, entitlement programs, and tax relief. To ensure that these funds
are spent appropriately, the Recovery Act requires quarterly reports by recipients on their use of
the funds. This audit focused on six agencies’ reporting for the quarter ending
December 31, 2009. We reviewed agencies’ efforts to fully implement internal control
structures that are effective in ensuring that recipient data are reported completely, accurately,
and in a timely manner and that any material omissions and/or significant errors are identified
and corrected.

The term “recipient” includes entities—such as States, municipalities, and businesses—that
receive Recovery Act funds through a grant, loan, or contract, referred to as an “award.” At the
end of each quarter, each award recipient provides information on the FederalReporting.gov6

6
  Prime recipients (and those subrecipients to which the prime recipient has delegated reporting responsibility)
submit their information through FederalReporting.gov, the Government-wide data collection system for all
Recovery Act recipient reports. Once recipient-reported data have been submitted to FederalReporting.gov and
reviewed by the appropriate agency, the information is made available to the public via Recovery.gov.

                                                                                                           3
Web site. Before this information can be released to the public on the Recovery.gov Web site,
the relevant agency and/or agency subunit is required to perform a data quality review to identify
material omissions and significant errors and to ensure that corrections are made.
OMB M-10-08 outlines guidance related to this data quality review.

The six OIGs participating in this review audited their respective agencies’ implementation of
OMB M-10-08 to determine whether the recipient-submitted information was complete,
accurate, and timely.

Scope and Methodology

Six OIGs conducted audits of their respective agencies’ implementation of OMB M-10-08,
which was OMB’s current guidance for the reporting period ending December 31, 2009. To
complete this work, the OIGs interviewed responsible agency personnel, attended meetings, and
compared agencies’ Recovery Act award data for the quarter ending December 31, 2009, with
the recipient-submitted data in FederalReporting.gov for that quarter.

All six OIGs conducted their audits from March through May 2010 in accordance with generally
accepted Government Auditing Standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.

This report presents the consolidated findings and conclusions based on the individual audit
work performed by these six OIGs and makes recommendations to the Recovery Board. As
such, we did not obtain comments regarding the overall findings and recommendations from the
agencies whose OIGs participated in the audit.

Objective

Our objective was to determine whether selected agencies awarding Recovery Act funds had
fully implemented internal control structures that are effective in ensuring that recipient data are
reported completely, accurately, and in a timely manner and that any material omissions and/or
significant errors are identified and corrected.

Findings

We found that all six agencies included in this review had, in accordance with OMB M-10-08,
issued and implemented limited policies and procedures in an effort to validate recipient-reported
data. However, we found overall that the level of effort and the methodologies used by the
various agencies to implement this guidance differed significantly from one agency to another
and among the subunits within agencies, resulting in material omissions and significant errors
not being identified, reported, and/or corrected. Four of the six OIGs participating in this review
have recommended that their agencies reevaluate their priorities and develop and implement a
process to ensure that all Recovery Act awards are identified and accurately reviewed through an


                                                                                            4
effective and consistent methodology to identify material omissions and significant errors.
Those agencies generally agreed with the findings and recommendations.

To identify material omissions and significant errors that were not identified by their respective
agencies for the quarter ending December 31, 2009, the OIGs performed reviews of the
recipient-reported data on FederalReporting.gov and attempted to compare that data with the
data available in the agency-owned systems. In general, these systems were legacy systems that
had been developed, designed, and implemented prior to the Recovery Act; as a result, data
fields, naming conventions, control totals, etc., were not always consistent and at times were
nonexistent. Examples of issues found are discussed below.

   ·   Inconsistency in Award Numbers and Agency/Agency Subunit Identifiers Inhibits
       Cross-Checking to Identify Errors and Omissions

       o We found that, in general, there was no consistent system of unique identifier codes
         for Recovery Act awards that would facilitate an easy methodology for matching
         recipient-reported award data in FederalReporting.gov with data in each agency’s
         system(s). Although each Recovery Act award has an associated award number, the
         numbering system is not uniform across the subunits within a given agency or across
         the Federal agencies as a whole. Instead, each Federal agency and, in many cases,
         each agency subunit determines its own internal award numbering system.

           Although two agencies included in our review, dealing mainly with Recovery Act
           grants, were able to effectively match recipient-reported data to agency records
           utilizing grant award numbers, we found numerous instances in the other four
           agencies where the recipient-reported award numbers on FederalReporting.gov and
           the agency-reported award numbers on the agency’s control list did not match. The
           problem was not that the agencies and recipients were not starting with the same
           information—the official award number is assigned by the agency or subunit at award
           and is supposed to be provided to the recipient, and this was generally the case. The
           disparities were, in many cases, the result of agencies or recipients including
           superfluous information (such as extra prefixes/suffixes, hyphens, or leading zeros) or
           erroneous data in the award-number field or embedding the award number in an
           unrelated field. Such discrepancies made it difficult for agencies and their respective
           OIGs to cross-check by matching the recipient-reported award numbers on
           FederalReporting.gov with the agency-reported award numbers on the agencies’
           control lists. For four agencies, this cross-checking was difficult and additional data
           fields had to be used in place of, or in conjunction with, the award number to match
           agency control lists with recipient-reported information on FederalReporting.gov.
           The inconsistency in award numbers compromised the usefulness of the award
           number.

           When agencies were reviewing recipient-reported data on FederalReporting.gov, they
           should have identified incorrect/non-matching award numbers, notified the award
           recipients of these errors, and worked with award recipients to correct them. OMB
           considers an incorrect award number to be a significant error because the award

                                                                                           5
            number is the primary method of identifying awards that are not being properly
            reported by recipients on FederalReporting.gov. In an effort to reduce the occurrence
            of such errors, OMB M-10-08 required agencies to supply award recipients with their
            “key award information,”7 including award numbers, by December 24, 2009, prior to
            the reporting timeframe for the quarter ending December 31, 2009.

        o We found 31 awards on FederalReporting.gov that were not included on the relevant
          agency’s control list because the agency was not aware that the subunit providing
          Recovery Act funding for the recipient was different from the subunit that made the
          award. As a result, these 31 awards were not included on several data calls and a
          certification to OMB.8 This occurred because the individual awards were identified
          at the agency level rather than the agency subunit level where the award was made
          and funded. Currently, there is a single code assigned that identifies the agency, and
          both the agency and all of the agency’s subunits use this same code. The code
          identifies only the agency and not the agency subunit; therefore, the subunit that
          actually funds the Recovery Act award or the subunit that actually makes the award is
          not identified. In most cases, the funding subunit and the awarding subunit are the
          same, but in this case, they were different. This gap in information could have been
          prevented if FederalReporting.gov used an identifier to identify the subunit in the
          existing “awarding agency code” field and the “funding agency code” field rather
          than the agency identifier.

    ·   Recommended Logic Checks Not Performed

        We found numerous errors that the agencies could have identified if they had performed
        the logic checks recommended in OMB M-10-08. For example:

        o We identified 16 awards that were erroneously posted under the TAS code for an
          agency subunit. This subunit had issued only one award for the quarter in question.
          The other 15 awards were erroneously attributed to this subunit because the award
          recipients incorrectly provided its TAS code instead of the correct agency’s or agency
          subunit’s TAS code. Had the subunit been monitoring recipient-reported data, it
          could have identified these errors.

        o We identified nine awards where the recipients identified the projects as being
          complete, and therefore, they were filing their final reports on FederalReporting.gov;
          however, the recipients also reported on FederalReporting.gov that the “project
          status” for the same awards was less than 100 percent complete.

        o We identified two awards where the recipients reported an award amount of $0. One
          of the recipients, awarded a $35,000 grant, reported an award amount of $0 for the
7
  OMB M-10-08 defined “key award information” as award type, award number, order number, funding agency
code, awarding agency code, Government contracting office code, award date, award amount, Catalogue of Federal
Domestic Assistance number, activity code, and program source code (the Treasury Account Symbol (TAS) code).
8
  This agency missed a key award information certification to OMB on December 24, 2009, and two OMB data calls
for award control totals due December 31, 2009, and February 26, 2010.

                                                                                                     6
       specified quarter and at the same time reported the project as 50 percent complete.
       Grantees are required to report the amount of the award, even if outlays have not been
       invoiced. The other recipient received a loan for $1.27 million in the specified
       quarter, but reported the award amount as $0. The agency subunit that awarded these
       two awards has stated that these errors were fixed for the subsequent quarter ending
       March 31, 2010.

    o We identified 20 awards where the recipients reported creating jobs, while at the
      same time, reported that they had not expended any funds.

    o We identified two awards where the recipients reported amounts for expenditures of
      funds that were greater than the amounts of the awards.

·   Inconsistencies in Definitions and Methodologies

    o When the six agencies conducted reviews of recipient-reported information, three
      identified material omissions and four identified significant errors. However, the
      agencies did not always ensure that the recipients corrected these omissions and
      errors in a timely manner. This allowed incorrect information to be presented to the
      public on Recovery.gov, even after the relevant agency had identified the information
      as being incorrect. For example, one agency notified its award recipients of the
      errors, but directed them to make the corrections during the next reporting quarter;
      OMB, however, requires such corrections during the current reporting cycle.

    o We determined that one agency’s subunits were using different margins of error as
      “action levels” to identify discrepancies in the data field for the award amount. These
      “action levels” are the cutoff points beyond which corrective action is required. One
      subunit used 2 percent as the “action level,” one used an “action level” of 10 percent,
      and one considered the presence of any incorrect amount (i.e., an error greater than
      zero percent) to require an action.

       OMB provides a broad definition of significant errors, but has left it to each agency
       subunit to determine what actually constitutes a significant error. For this agency, an
       incorrect recipient-reported value may or may not constitute a significant error,
       depending on which subunit gave the award. “Material” and “significant” are both
       matters of judgment, and they should be assessed both quantitatively and
       qualitatively. The disparity among subunits in this agency demonstrates that
       additional OMB guidance is needed for consistent identification and reporting of
       significant errors.

    o We noted that of the six agencies reviewed, three were not taking adequate action
      against award recipients that did not comply with reporting requirements. For
      example, at one agency the documented procedures for dealing with such award
      recipients were incomplete, and the section of the policy discussing two-time non-
      reporters did not contain sufficient detail to bring these recipients into compliance.
      Although the agency’s recipient-reporting team identified noncompliance, it did not

                                                                                      7
             interpret its role to include enforcing compliance. Another agency did not always
             take action to reduce further noncompliance by noncompliant award recipients. In a
             judgmental sample of 10 award recipients who had twice failed to report, the agency
             notified only 5 award recipients of their noncompliance. The goal of such
             notification is to encourage non-reporters to comply or risk losing their awards. The
             other five award recipients were not notified because the agency did not provide
             guidance to contracting officers to establish contact with each non-reporting award
             recipient.

Recommendations

We recommend that the Recovery Board pursue discussions with the appropriate entities
concerning the feasibility and cost/benefit of the following actions, to help ensure more accurate
recipient reporting.

    1. Establish a uniform, consistent Governmentwide award numbering system,9 in
       conjunction with the agencies, for all Recovery Act recipients. It is difficult to identify
       errors and omissions in Recovery Act recipient-reported data because of inconsistencies
       in award numbers.

    2. Make the logic checks suggested by OMB M-10-08 mandatory when relevant for the
       award type. Additional mandatory logic checks should be included when appropriate.
       Many of the errors and omissions identified in this report could have been identified and
       corrected if the relevant logic checks had been performed.

    3. Issue guidance addressing material omissions and significant error limits. Consistency
       and uniformity within and across agencies would greatly enhance transparency and
       accuracy.

We received comments concerning this report from the OIGs represented on the Recovery Board
and those OIGs participating in the review, but not on the Board. In general, comments from the
various IG staffs were positive concerning the reported findings and recommendations; however,
total consensus was not reached for Recommendation Number 1. General concurrence was
reached for recommendation numbers 2 and 3.

Five of the thirteen IG offices commenting on the report had concerns with Recommendation
Number 1. One IG office believed that Recommendation Number 1 should be less specific and
only recommend that the Recovery Board pursue, in conjunction with Federal granting agencies,
a Governmentwide numbering system that meets the needs of the granting agencies and
improves identification of errors and omissions. The other four IG offices believed that although
the establishment of uniform, consistent Governmentwide numbering system may have been a

9
  Several options could be considered when defining a uniform award number. One example might be an award
number consisting of the agency code, a code for the agency subunit, and a sequence number (i.e., an award given
by an agency might have the number 06010004, where 06 represents the agency, 01 represents the subunit within
the agency, and 0004 represents the fourth award given by the agency or subunit).


                                                                                                         8
good idea when the Recovery Act was first passed, changing the recipient numbering system
now would have limited benefit, be costly, and not be practical. They believed that the current
recipient numbering system used by their agencies was effective and any changes to the
numbering system at this stage of Recovery Act implementation would not be cost beneficial.

We found that agencies with multiple subunits involved in both grants and contracting would be
the primary beneficiaries of a uniform and consistent Governmentwide numbering system. Such
a system would, in our view, improve the accuracy of recipient reporting by allowing agency
staffs to make more effective and efficient reviews of recipient-reported data.

All of the IG offices generally agreed with Recommendation Number 2. With respect to
Recommendation Number 3, four of the IG offices believed that the definition of significance
should vary by agency (i.e., one size may not fit all). However, we believe that with a single
repository of Recovery Act recipient information (Recovery.gov), a basic standard definition for
significance is necessary for there to be a consistent interpretation of the recipient-reported data.

USDA OIG appreciates the courtesy and cooperation of the participating OIGs, the Recovery
Board staff, and Federal agency staffs during this audit. We provided a draft of the report to the
OIGs of the six agencies that participated in the audit and have incorporated their comments as
appropriate. If you have any questions concerning this report, please call me at (202) 720-8001,
or have a member of your staff contact Robert W. Young, Special Assistant to the Inspector
General for the Recovery Act, at (202) 720-6945.




                                                                                             9
